THE ACADEMY OF NATURAL SCIENCES
       Philadelphia, Pennsylvania



     Financial and Compliance Audit
                    of
              Indirect Costs
           For the Year Ended
           December 31, 2000




                             M.D. Oppenheim & Company, P.C.
                                   Certified Public Accountants
                               485 U.S. Highway 1, Building C
                                 Iselin, New Jersey 08830-4100
                       THE ACADEMY OF NATURAL SCIENCES

                                      Table of Contents

                                                                                     Pale

Acronyms                                                                                1

Section I - Introduction and Audit Results:
 Background                                                                             3
 Objective and Scope of Audit                                                           3
 Summary of Audit Results                                                               4
 Exit Conference                                                                        7

Section II - Findings and Recommendations:
 Independent Auditors' Report on Compliance and Internal Control                        9
 Findings and Recommendations on Compliance                                            11
 Finding and Recommendation on Internal Control                                        17

Section III - Financial Schedules:
 Independent Auditors' Report                                                         20
 Financial Schedules:
 Schedule A -Schedule of Over/(Under) Recovered Indirect Costs on National Science
                Foundation Awards                                                     22
 Schedules B-1 to B-7 - Schedules of Indirect Cost Calculation                        23
 Schedule C - Schedule of Auditors' Adjustments and Eliminations                      30
 Notes to Financial Schedules                                                         33

Section IV - Supplementary Information:
 Independent Auditors' Report on Supplementary Information                            35
 Schedule D-1 to D-7 - Schedule of Over/(Under) Recovered Indirect Costs              36
 Schedule E - Listing of NSF Awards Active During Audit Period Not Affected by
               Indirect Cost Audit                                                    43

 Section V - Awardee's Response                                                       44
	




                    THE ACADEMY OF NATURAL SCIENCES

                                      Acronyms


    Acronym   Explanation of Acronym

    AICPA     American Institute of Certified Public Accountants

     ANS      The Academy of Natural Sciences

     CPO      Division of Contract, Policy and Oversight

     DGA      Division of Grants and Agreements

     FCTR     Federal Cash Transactions Report

      FY      Fiscal Year

     FYE      Fiscal Year Ended

    MTDC      Modified Total Direct Costs

     NSF      U.S. National Science Foundation

     OIG      Office of Inspector General

     OMB      Office of Management and Budget




                                                                   1
           SECTION I

INTRODUCTION AND AUDIT RESULTS




                                 2
                              SECTION I -
                    INTRODUCTION AND AUDIT RESULTS

                                      BACKGROUND

   The Academy of Natural Sciences (ANS) is an international museum of natural history
operating since 1812, and undertakes research and public education that focuses on the
environment and its diverse species. ANS is a not-for-profit, tax-exempt organization.

    ANS generates approximately $17 million of annual revenues mainly from grants and
contracts, contributions, bequests, endowments, museum admissions and museum shop
income. Of the approximate $17 million of annual revenues, federal financial assistance
approximates $3.7 million.

                         OBJECTIVE AND SCOPE OF AUDIT

    At the request of the NSF Office of the Inspector General (OIG), M. D. Oppenheim &
Company, P.C. conducted a financial and compliance audit of the indirect cost proposal
prepared by ANS for the year ended December 31, 2000 to determine final indirect cost rates
(On-Site and Off-Site) for that year. During the period of our audit there were seven NSF
awards that included indirect costs based on various maximum provisional rates specified in
the award letter and/or award budget. Our audit objectives were: (1) to determine whether
ANS complied with federal requirements in computing its indirect costs proposal; (2) to
determine whether ANS over or under-recovered indirect costs on each NSF award active
during the audit period, based upon the audit determined indirect cost rates (On-Site and Off-
Site); and (3) to evaluate the adequacy of ANS's internal controls to administer, account for,
and monitor indirect cost charges to federal awards.

   To accomplish the objectives of the audit, we:

   •   Conducted an on-site audit survey with sufficient observations, interviews, and
       examinations of documents to make an initial determination whether maximum
       provisional rates were based on allowable indirect costs and whether controls to
       administer, account for, and monitor indirect costs are adequate to ensure compliance
       with federal cost principles and administrative requirements.

   •   Prepared an audit planning document, for OIG review and approval. The planning
       document included a description of ANS's organizational structure and the process
       used to administer, account for, and monitor indirect cost charges to federally
       sponsored awards. As part of the planning process we performed an assessment of
       audit risk and obtained an understanding of ANS's control environment.

   •   Prepared an internal control audit planning document for OIG review and approval.
       The internal control planning document included the proposed audit
       programs/procedures for testing the significant internal controls necessary to
       accurately administer, account for, and charge indirect cost charges to federally
       sponsored awards. As part of the internal control process, we assessed the internal


                                                                                            3
          controls in the areas of control environment, risk assessment, information and
          communication, monitoring and control activities.

    •     Prepared a substantive audit testing planning document for OIG review and approval.
          The substantive planning document included the preliminary results of the internal
          control phase of the audit, including any findings and recommendations and the
          proposed audit program, which included the tests on compliance with applicable laws
          and regulations and substantive testing procedures to be applied to the indirect cost
          pools and the direct cost base.

    •     Performed testing procedures to determine whether the indirect cost proposals and the
          resultant indirect cost rates comply with OMB Circulars A-110, Uniform
         Administrative Requirements for Grants and Agreements with Institutions of Higher
         Education, Hospitals and Other Nonprofit Organizations, and A- 122, Cost Principles
         for Non-Profit Organizations.

    We conducted our audit in accordance with AICPA auditing standards generally accepted
in the United States of America, the Comptroller General's, Government Auditing Standards
and the provisions of the NSF Grant Policy Manual, and included tests of the accounting
records and other auditing procedures that we considered necessary to fully address the audit
objectives.




•       ANS was not in compliance with federal property standards because asset records did
        not include information such as location, serial number, and whether assets were
                                                                                           4
     purchased with federal or non-federal funds. For the year ended December 31, 2000,
     depreciation expense in the indirect cost pool totaling $726,486 was related to restricted
     fund assets. As a result, we were unable to determine what equipment, if any, had been
     purchased with federal funds and therefore whether depreciation on this equipment was
     included in the indirect cost pool, which is unallowable. ANS did not maintain
     adequate records because it was not knowledgeable of the federal regulations.

Non-Material Non-Compliance

•    ANS included $12,690 of unallowable costs including alcohol and an awards dinner in
     the indirect cost pool. This problem occurred because the chart of accounts and general
     ledger did not segregate allowable and unallowable expenses. ANS believed that both
     the chart of accounts and general ledger were sufficient for its needs.

•    ANS did not appropriately value the cost of volunteer services totaling $62,476.
     Although ANS tracked the hours provided by each volunteer, it did not track the type of
     services provided and the hourly rate attributable to that activity. We noted in our audit
     that the hourly rate applied to volunteers was inconsistent with the rate paid to ANS
     employees with similar job responsibilities. Therefore, volunteer service costs may be
     misstated in the indirect cost proposal, resulting in an improper calculation of the
     indirect costs rates. ANS did not maintain adequate records because it was not
     knowledgeable of the federal regulations.




       To address the compliance and internal control deficiencies identified in our audit, we
recommend that the Directors of NSF's Division of Acquisition and Cost Support (DACS)
and the Division of Grants and Agreements (DGA) require that ANS (1) maintain detailed
time and attendance records to document the actual time worked by project/award and
administrative time at least monthly for all departments, (2) develop and implement policies
and procedures to document its property records in accordance with federal guidelines, (3)
develop and implement policies and procedures to prepare a chart of accounts and general
ledger that identifies and segregates accounts between allowable and unallowable costs, (4)
develop and implement policies and procedures to ensure that the valuation of volunteer
services complies with federal regulations, and (5) develop and implement written policies
and procedures documenting its indirect cost calculation process and require that the ANS
financial staff receive training on how to properly and accurately prepare an IDCP.




                                                                                             5
Summary of Auditee's Responses

        With respect to the compliance issues presented in the report, ANS has indicated their
concurrence with all findings except the finding related to volunteer services (which they
believe is conservatively accurate). ANS also indicated what procedures have been instituted
to correct the compliance issues with which they concur.

        With respect to the internal control weakness presented in the report, ANS concurred
with the weakness and presented steps they will institute to correct these deficiencies in the
future.




                                                                                            6
                                    Exit Conference


   An exit conference was held on June 21, 2002 at the Auditee's office located at 1900
Benjamin Franklin Parkway, Philadelphia, Pennsylvania. The findings on compliance and
internal control along with the adjustments and eliminations related to the indirect cost
proposals were discussed by the following individuals.




                                                                                       7
         SECTION II

FINDINGS AND RECOMMENDATIONS




                               s
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


              INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                        AND INTERNAL CONTROL

We have audited the summary schedule of over/(under) recovered indirect costs
(Schedule A) and the schedules of indirect/direct costs (B-I to B-7) which summarize the
indirect cost proposal prepared by Academy of Natural Sciences for the year ended
December 31, 2000, and have issued our report thereon dated June 21, 2002. We conducted
our audit in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States and the National Science
Foundation Audit Guide (September 1996).

Compliance

As part of obtaining reasonable assurance about whether Academy of Natural Science's
financial schedules are free of material misstatement, we performed tests of its compliance
with certain provisions of laws, regulations, and policies, noncompliance with which could
have a direct and material effect on the determination of the financial schedules amounts.
However, providing an opinion on compliance with those provisions was not an objective of
our audit and, accordingly, we do not express such an opinion. The results of our tests
disclosed the instances of noncompliance, as reported in the accompanying Findings and
Recommendations on Compliance and the adjustments and eliminations noted in Schedule C,
that are required to be reported under Government Auditing Standards and the National
Science Foundation Audit Guide.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered Academy of Natural Science's internal
control over financial reporting in order to determine our auditing procedures for the
purposes of expressing our opinion on the financial schedules and not to provide assurance
on the internal control over financial reporting. However, we noted a certain matter
involving internal control over financial reporting and its operation that we consider to be a
reportable condition. Reportable conditions involve matters coming to our attention relating



                                                                                            9
National Science Foundation
Office of Inspector General
Arlington, Virginia


Internal Control Over Financial Reporting (Cont.)

to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect Academy of Natural Science's ability
to record, process, summarize and report financial data consistent with the assertions of
management in the financial schedules. The reportable condition noted is described in the
accompanying Finding and Recommendation on Internal Control.

A material weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within_ a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control over
financial reporting would not necessarily disclose all matters in the internal control that
might be reportable conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. However, we believe the
reportable condition described above is a material weakness.

This report is intended solely for the information and use of Academy of Natural Sciences
and the National Science Foundation and is not intended to be and should not be used by
anyone other than these specified parties.




                                                                                           10
                      THE ACADEMY OF NATURAL SCIENCES
                      Findings and Recommendations on Compliance
                          For the year ended December 31, 2000

                                    Material Deficiencies




      ANS in preparing their indirect cost proposal included the cost of sick, vacation,
holiday and personal days in their belief that those were fringe benefits of employment at
ANS. These days are part of a fringe benefit package available to employees, however, the
cost of these fringe benefits are all part of the compensation to an individual employee and
are included in salary and wage costs.

Recommendation

      We recommend that the Directors of NSF's Division of CPO and DGA require ANS to
develop and submit for NSF approval written policies and procedures in conformance with
OMB Circulars A-110 and A-122 for the classification of direct and indirect costs; and
ensure that ANS future indirect cost rate proposals do not include fringe benefit costs for
sick, vacation, holiday and personal days in their indirect cost pools.

Auditee's Response

     Academy of Natural Sciences (ANS) staff responsible for preparing the indirect cost
proposal mistakenly included the cost of sick, vacation, holiday and personal days as fringe
benefit costs of employment at ANS.         They did not correctly analyze indirect cost
methodology and realize that the costs of these fringe benefits are part of the compensation
to employees included in salary and wage costs.

     Future ANS indirect cost rate proposals will not include fringe benefit costs for sick,
vacation, holiday and personal days in the indirect cost pool. ANS is developing a procedure
manual and template to prevent these types of errors in the future.

Auditors' Response to Auditee's Response

     Since ANS concurs with the finding a response is not deemed necessary.

                                                                                          11
2.   Timekeeping System Inadequate

      OMB Circular A- 122 specifies that salaries and wages chargeable to an award must be
supported by personnel activity reports. In addition, the Circular states that to support the
allocation of indirect costs to federal awards, activity reports must be maintained for
employees who split their time between both direct and indirect cost activities. In either
case, the reports must reflect "an after-the-fact determination of the actual activity of each
employee," be signed by the employee or the employee's supervisor, and be prepared at least
monthly.




Recommendation

      We recommend that the Directors of NSF's DACS and DGA require ANS to submit for
NSF's review and approval a process track, document, and certify monthly labor distribution
reports documenting the time employees of its research departments spend on both direct and
indirect cost activities.

Auditee's Response

      ANS has an adequate system to track, document, and certify the labor efforts for its
staff. As noted in the audit findings only Biodiversity department was at issue, none of the
other departments within the science division were affected. Until October 2001, the
Biodiversity department personnel were not enforced by their management to participate in
this system as this peculiar staff interpreted the documentation as "1984-esque".

     ANS administration staff did not "arbitrarily" determine time allocations for the
indirect cost plan; instead, it had established what it thought was a reasonable allocation
policy in determining the amount of time Biodiversity staff spent on administrative activities.

     In October 2001 procedures were introduced, which force the Biodiversity employees
to document time on a bimonthly basis. Compensation is tied directly to the documentation
and senior management has clearly communicated that noncompliance will not be tolerated.

Auditors' Response to Auditee's Response

    Since new procedures have been instituted effective October 2001 a response is not
deemed necessary.
                                                                                            12
3.   Incomplete Property Records

       OMB Circular A-110 states that awardees must maintain equipment records that are
accurate and include information such as a description, acquisition date and cost, and source
of the equipment including the award number. In addition, the computation of use
allowances or depreciation on equipment will exclude "any portion of the cost of buildings
and equipment borne by or donated by the Federal Government irrespective of where title
was originally vested or where it presently resides..."

        For the year ended December 31, 2000, ANS had depreciation expense in the indirect
cost pool totaling $920,061 for facilities improvement. Of that amount $726,486 was related
to restricted fund assets. However, ANS property records did not specifically identify
whether the source of funding for the funded assets was an endowment fund, federal fund,
debt-finance fund, or some other type of restricted fund.

        Therefore, because ANS property records did not delineate between federal and non-
federally-funded assets, we were unable to determine whether the depreciation expense
proposed by ANS in its indirect cost proposal included "any portion of the cost of equipment
borne by or donated by the Federal Government..." The inclusion of depreciation for
federally-funded assets in the indirect cost pool would result in the federal government
paying excessive indirect costs.        This problem occurred because ANS was not
knowledgeable of the federal regulations requiring that such information be documented for
their property records.

Recommendation

       We recommend that the Directors of NSF's DACS and DGA require ANS to submit
for NSF's review and approval property management policies and procedures that are
consistent with the requirements of OMB Circular A-110.

Auditee's Response

     The Academy developed a database in January 2002 to track and manage all equipment
purchased with federal funds. The database cross-references the depreciation schedule by
job number, which allows for easy identification and exclusion of all federally funded assets.

Auditors' Response to Auditee's Response

     Since ANS concurs with the finding a response is not deemed necessary.




                                                                                            13
                       THE ACADEMY OF NATURAL SCIENCES
                   Findings and Recommendations on Compliance (Cont.)
                           For the Year ended December 31, 2000

                                 Non-Material Deficiencies

1.   Chart of Accounts and General Ledger Does Not Separately Identify Allowable and
     Unallowable Costs

      NSF's Prospective New Awardee Guide states that an adequate accounting system, at a
minimum, must provide for identification of expenditures as allowable and unallowable. In
addition, OMB Circular A-122 states that to be allowable under an award, cost must...
conform to any limitation or exclusions set forth in these principles or in the awards as to
types or amounts of cost items.

      ANS included $12,690 of unallowable costs including alcohol and an awards dinner in
the indirect cost pool (see Schedule B-6 and Schedule C). This problem occurred because
the ANS chart of accounts and general ledger did not differentiate between allowable and
unallowable costs. Although ANS has an extensive chart of accounts and general ledger, the
shear volume of cost activity makes it more likely that unallowable costs will not be
excluded during the annual preparation of the indirect cost proposal.

      ANS believed that both their chart of accounts and general ledger were prepared in
enough detail that it not only met their needs thoroughly, but also met any required statutes.
They were not aware of the NSF and federal regulations requiring that the chart of accounts
delineate between allowable and unallowable costs.

Recommendation

      We recommend that the Directors of NSF's DACS and DGA ensure that ANS develop
and implement policies and procedures to prepare a chart of accounts and general ledger that
identifies and segregates its accounts between allowable and unallowable costs.

Auditee's Response

      While the ANS chart of accounts, prior to January 2002, did not differentiate between
allowable and unallowable costs, every effort was made to exclude unallowable costs during
the annual preparation of the indirect cost proposal.

      Knowing that alcohol is an unallowable expense, ANS staff preparing the indirect cost
proposal deducted a blanket $3,000 from research administration supplies for any alcohol
related expense. Unfortunately, the estimate was short of actual expense. Prior to modifying
the chart of accounts the shear volume of cost activity made it difficult to identify all
unallowable costs and the Academy relied on estimates.

      ANS modified the chart of accounts and general ledger in January 2002 to identify and
segregate allowable and unallowable costs. Staff has been trained as to what costs are
allowable and unallowable. Procedures are in place to exclude unallowable costs in the
indirect cost proposal.
                                                                                           14
Auditors' Response to Auditee's Response

     Since ANS concurs with the finding a response is not deemed necessary.

2.   Appropriate Valuation of Volunteer Service Costs

     OMB Circular A-122 states that in order for costs to be allowable under an award, they
must be adequately documented. In addition, it also states that pay rates used to calculate the
value of volunteers services should be consistent with those regular rates paid for similar
work in other activities of the organization.

     During the year ended December 31, 2000, ANS included $62,476 of volunteer service
costs in its direct cost base. ANS tracks volunteer service hours that are being donated to the
organization and properly records the information in its indirect cost proposal. However,
ANS does not track the type of services that are being performed by the volunteers nor do
they value the rate of pay based on those services.--The hourly rate of pay assigned to each
volunteer was not consistent with the rate of pay applied to an employee with similar
functions at ANS and instead was based on prior year rates. The rate assigned to a volunteer
hour of service could be higher or lower than an individual performing the same function as a
paid employee. Without the reliability of proper documentation or the establishment of a
reasonable valuation policy, ANS's direct cost base in proposals submitted to NSF may be
misstated resulting in an improper calculation of its indirect costs rates.

      ANS believed their records were sufficient to document the services provided by their
volunteers. Furthermore, they were not knowledgeable of the federal regulations regarding
the proper valuation of volunteer services.

Recommendation

      We recommend that the Directors of NSF's Divisions of DACS and DGA require that
ANS develop and implement policies and procedures to ensure that the pay rates used to
calculate the value of volunteers services are consistent with those regular rates paid for
similar work in other activities of the organization.

Auditee's Response

      At ANS, services performed by volunteers are generally not consistent with those
performed by paid personnel, but rather of an assisting nature. Without a volunteer, no paid
help would have been available. Because few volunteers are working at jobs similar to those
as paid staff, it becomes difficult in estimating a proper valuation of those volunteer services.

      Given this environment, volunteer services are estimated conservatively. The hourly
rate of pay assigned to each volunteer is, ANS believes, below that of what a paid individual
would demand. Erring on the conservative side, it is unlikely that the methodology of
valuing volunteer services made by ANS has led to overstating the indirect cost rate.



                                                                                              15
Auditors' Response to Auditee's Response

     Since ANS does not document how they arrive at a volunteer rate and that rate is
applied universally, the finding remains as stated. ANS should group the volunteers by type
of work and then compute/assign a rate by each group and document how the rate is arrived
at.




                                                                                         16
                        THE ACADEMY OF NATURAL SCIENCES
                      Finding and Recommendation on Internal Control
                           For the Year ended December 31, 2000

                                     Material Weakness

1.   Inadequate Procedures Related to the Preparation of the IDCP

     ANS does not have adequate control procedures related to the preparation and
submission of its indirect cost proposal (IDCP). In particular, ANS payroll and property
records were not in compliance with Federal regulations, and ANS did not have adequate
policies and procedures related to the segregation of unallowable costs in its accounting
system and the valuation of volunteer services.




      Although OMB encourages the use of predetermined indirect cost rates, these internal
control weaknesses suggest that NSF should continue to use a maximum provisional indirect
cost rate (MPR) with ANS. An MPR is a "temporary rate established for an award to permit
funding and reimbursement of indirect costs pending establishment of a final rate using
actual cost data." In cases where an awardee is new to NSF funding or if there are
significant audit-reported compliance deficiencies and/or internal control weaknesses, the use
of an MPR is warranted because "it limits indirect cost recoveries to the lower of the
maximum provisional rate established at the time of the award, or the final rate..."

Recommendation

     We recommend that the Directors of NSF's DACS and DGA require that the ANS
develop and implement written policies and procedures documenting its indirect cost
calculation process and require that the ANS financial staff receive training on how to
properly and accurately prepare an IDCP.

Auditee's Response

     At least since January 2002 (earlier in some instances), ANS payroll and property
records are compliant with Federal regulations. ANS also has adequate policies and
procedures related to the segregation of unallowable costs in its accounting system, and will
make a concerted effort in properly valuing volunteer services.

      As a non-profit organization facing certain financial challenges everyone is forced to
multitask. Unfortunately, due to turnover within the department, an individual with no
experience or training in Indirect Costs Proposal (IDCP) preparation prepared the IDCP for
2000. We have since taken steps to correct the problem. We have invested in training and
have begun documenting the procedure for preparing the IDCP. We are developing a
template to use in preparing the IDCP. ANS will continue to seek out training opportunities
to keep staff knowledgeable in IDCP preparation.

                                                                                           17
Auditors' Response to Auditee's Response

    Since ANS concurs with the finding a response is not deemed necessary.




                                                                             18
    SECTION III

FINANCIAL SCHEDULES




                      19
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                         INDEPENDENT AUDITORS' REPORT

We have audited the indirect cost proposal, Academy of Natural Sciences has proposed as
applicable to the National Science Foundation and other federal awards for the year ended
December 31, 2000.       The indirect cost proposal, as presented in the schedules of
indirect/direct costs (Schedules B-1 to B-7) and the schedule of over/(under) recovered
indirect costs (Schedule A) are the responsibility of Academy of Natural Science's
management. Our responsibility is to express an opinion on Schedules A and B-1 to B-7
based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide (September
1996). Those standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the financial
schedules are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe
our audit provides a reasonable basis for our opinion.

The accompanying financial schedules were prepared for the purpose of complying with the
requirements of the National Science Foundation Audit Guide as described in Note 1, and are
not intended to be a complete presentation of financial position in conformity with
accounting principles generally accepted in the United States of America.

In our opinion, the financial schedules referred to above present fairly, in all material
respects, the indirect cost proposal (Schedules B-1 to B-7) and the resultant over/(under)
recovered indirect costs (Schedule A) for the year ended December 31, 2000 on the basis of
accounting described in Note 1.

In accordance with Government Auditing Standards, we have also issued our report dated
June 21, 2002 on our consideration of Academy of Natural Science's internal control over
financial reporting and on our tests of its compliance with laws and regulations. That report
is an integral part of an audit performed in accordance with Government Auditing Standards
and should be read in conjunction with this report in considering the results of our audit.

                                                                                          20
National Science Foundation
Office of Inspector General
Arlington, Virginia


Schedule C contains indirect costs in the amount of $136,185 that are reductions to the
indirect costs proposed and $181,111 that are additions to the direct costs proposed for the
year ended December 31, 2000. The final determination, as to whether such costs are
allowable or unallowable, will be made by the National Science Foundation. The ultimate
outcome of this determination cannot presently be determined.

This report is intended solely for the information and use of Academy of Natural Sciences
and the National Science Foundation and is not intended to be and should not be used by
anyone other than these specified parties.




                                                                                         21
                                                       THE ACADEMY OF NATURAL SCIENCES
                                  Schedule of Over/(Under) Recovered Indirect Costs on National Science Foundation Awards
                                                    For the period January 1, 2000 to December 31, 2000




Comments/Notes:
MTDC = Modified total direct costs. (Total direct program costs less equipment and participant support costs).
(A) Financially closed award.
(B) Total over- recovery is $20,737, which represents all of the over-recovering amounts without regard to the $802 (which is an under-recovery to a closed award).




See accompanying notes to these financial schedules.
                                                                Schedule B-1

                       THE ACADEMY OF NATURAL SCIENCES
                                Indirect Cost Calculation
                         For the year ended December 31, 2000




See accompanying notes to these financial schedules.
                                                                         23
	




                                                                                   Schedule B-2

                           THE ACADEMY OF NATURAL SCIENCES
                            Schedule of Direct Costs (Research Costs)
                             For the year ended December 31, 2000


                                                               Auditors'
                                                             Adjustments
                                                  Proposed       and        Note     Allowable
                     Expenses	                     Costs     Eliminations   No.	       Costs




    See accompanying notes to these financial schedules.
                                                                                            24
                                                                                    Schedule B-3
                        THE ACADEMY OF NATURAL SCIENCES
                     Schedule of Facilities (Building Operations) Expenses
                           For the year ended December 31, 2000




(A)   The amounts agree with the indirect cost rate proposal submitted by The Academy of
      Natural Sciences (ANS). The total costs before auditors' adjustments and eliminations
      agree with ANS's books of account.

(B)   Allocations based upon the square footage for each department as a percentage of the total
      square footage.

* See Schedule C.


See accompanying notes to these financial schedules.
                                                                                              25
Schedule B-4




         26
	




                                                                                   Schedule B-5

                           THE ACADEMY OF NATURAL SCIENCES
                                  Schedule of Library Expenses
                             For the year ended December 31, 2000

                                                               Auditors'
                                                             Adjustments
                                                  Proposed       and        Note     Allowable
                     Expenses	                     Costs     Eliminations   No.	       Costs




    See accompanying notes to these financial schedules.
                                                                                            27
	




                                                                                   Schedule B-6

                           THE ACADEMY OF NATURAL SCIENCES
                           Schedule of Research Administrative Expenses
                              For the year ended December 31, 2000


                                                              Auditors'
                                                             Adjustments
                                                 Proposed        and        Note     Allowable
                     Expenses	                     Costs     Eliminations   No.	       Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by The Academy of
        Natural Sciences (ANS). The total costs before auditors' adjustments and eliminations
        agree with ANS's books of account.

    * See Schedule C.




    See accompanying notes to these financial schedules.
                                                                                            28
                                                                             Schedule B-7

                       THE ACADEMY OF NATURAL SCIENCES
              Schedule of Network Management (Computer Services) Expenses
                           For the year ended December 31, 2000




(A) The amounts agree with the indirect cost rate proposal submitted by The Academy of
    Natural Sciences (ANS). The total costs before auditors' adjustments and eliminations
    agree with ANS's books of account.




See accompanying notes to these financial schedules.
                                                                                      29
	




                                                                                      Schedule C

                          THE ACADEMY OF NATURAL SCIENCES
                        Schedule of Auditors' Adjustments and Eliminations
                              For the year ended December 31, 2000

    The amounts as proposed by ANS in their indirect cost proposal for the year ended
    December 31, 2000 (Schedules B-1 to B-7) required various adjustments and eliminations to
    the indirect cost or direct cost pools. These adjustments and/or eliminations are presented in
    Schedules B-2, B-3, B-4 and B-6. Presented below is the detailed explanation of those
    adjustments and/or eliminations along with the relevant criteria.

    Schedule    Note                       Explanation of the                       Reference
	     Ref.      No.                      Adjustment/Elimination                     to Criteria

      B-3        (1)    The amount of depreciation expense listed in the indirect       (A)
                        cost proposal did not agree with the accounting records.
                        ANS inadvertly reported the incorrect amount on the
                        indirect cost proposal, which was lower than the actual
                        depreciation expense per ANS's financial records.

      B-4        (2)    The negative amount for small (non-depreciable)                 (A)
                        equipment purchases is incorrect. Based upon the books
                        of account this amount should be zero.

      B-6        (3)    Salary benefits were calculated incorrectly. The amount         (A)
                        presented included a calculation for the benefit cost of
                        sick, vacation, holiday and personal days.         These
                        amounts were already included in the gross payroll
                        amounts recorded in salaries and wages expense.

      B-6        (4)    Alcoholic beverages were recorded in this expense.              (C)

      B-6        (5)    The adjustments to travel expense were for the
                        following:
                            1. Lack of adequate supporting documentation in
                               the form of a vendor invoice for $1,901.                 (B)
                            2. A contribution for $1,500.                               (D)
                            3. The cost of an awards dinner for $1,187.                 (E)
                            4. A penalty charge on an invoice for $29.                  (F)

      B-6        (6)    The adjustment is made to reflect an expense that should        (G)
                        be properly charged to the VIREO department. This
                        department is not part of the Research Group
                        department, which is the department that indirect costs
                        are properly computed thereon.




                                                                                                  30
                                                                             Schedule C (Cont.)

                            THE ACADEMY OF NATURAL SCIENCES
                      Schedule of Auditors' Adjustments and Eliminations (Cont.)
                                For the year ended December 31, 2000


Schedule       Note                    Explanation of the                   Reference
  Ref.         No.                   Adjustment/Elimination                 to Criteria

      B-6       (7)       The adjustments to other expense was for the
                          following:
                              1. Alcoholic beverages for $4,000.                   (C)
                              2. A lump sum payment of $3,971 to an                (H)
                                 employee as a bonus. The bonus was
                                 not related to any work effort.


The criteria for the above adjustments/eliminations, as referenced, are as follows:

(A) OMB Circular A-110, Subpart C, paragraph 21 (b) (1) requires the accurate, current
    and complete disclosure of the financial results of each federally- sponsored project or
    program.

(B)     OMB Circular A-110, Subpart C, paragraph 21 (b) (7) requires accounting records that
        are supported by source documentation.

(C)     OMB Circular A-122, Attachment B, Section 2, states that alcoholic beverages are
        unallowable.

(D)     OMB Circular A-122, Attachment B, Section 9, states that contributions and donations
        by the organization to others are unallowable.

(E)     OMB Circular A-122, Attachment B, Section 14, states that costs of amusement,
        diversion, social activities, ceremonials, and costs relating thereto, are unallowable.

(F)     OMB Circular A-122, Attachment B, Section 16, states that the cost of fines and
        penalties are unallowable.

(G)     OMB Circular A-122. Attachment A, paragraph D, (1) (b) states that an organization
        which has several major functions which benefit from its indirect costs in varying
        degrees, allocation of indirect costs may require the accumulation of such costs into
        separate cost groupings which then are allocated to benefiting functions.

(H)     OMB Circular A-122, Attachment B, Section 7 (i), states that incentive compensation
        to employees based on efficient performance is allowable to the extent that the overall
        compensation is determined to be reasonable and such costs are paid pursuant to an
        agreement in good faith between the organization and the employee before services
        were rendered.
                                                                                             31
                                                                       Schedule C (Cont.)

                     THE ACADEMY OF NATURAL SCIENCES
               Schedule of Auditors' Adjustments and Eliminations (Cont.)
                         For the year ended December 31, 2000


Auditee's Response

     ANS agrees with the adjustments presented in the report. We have taken appropriate
action to correct the causes for these adjustments and will continue to seek out training
opportunities to keep staff knowledgeable in IDCP preparation.

Auditors' Response to Auditee's Response

     Since ANS concurs with the adjustments a response is not deemed necessary.




                                                                                      32
                      THE ACADEMY OF NATURAL SCIENCES
                             Notes to Financial Schedules
                        For the year ended December 31, 2000


1. Summary of Significant Accounting Policies:

The accompanying financial schedules have been prepared in conformity with National
Science Foundation (NSF) instructions. Schedules B-1 to B-7 have been prepared from the
indirect cost proposal prepared by Academy of Natural Sciences and Schedule A, has been
prepared based upon the results of the audit of Schedules B-1 to B-7. The schedules do not
present the complete financial position of Academy of Natural Sciences. In accordance with
NSF instructions, there are no schedules of financial position, statement of activities or
statement of cash flows.

2.   Income Taxes:

The Academy of Natural Sciences is a private nonprofit corporation, incorporated under the
laws of the Commonwealth of Pennsylvania. The Academy of Natural Sciences is exempt
from income taxes under Section 501(c)(3) of the Internal Revenue Code. It is also exempt
from Commonwealth of Massachusetts income tax.




                                                                                       33
        SECTION IV

SUPPLEMENTARY INFORMATION




                            34
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


    INDEPENDENT AUDITORS' REPORT ON SUPPLEMENTARY INFORMATION

Our report on our audit of the schedule of over/(under) recovered indirect costs and
schedules of indirect and direct costs (the basic financial schedules) of Academy of Natural
Sciences for the year ended December 31, 2000, appears in Schedule A and Schedules B-1 to
B-7. The audit was made for the purpose of forming an opinion on the basic financial
schedules taken as a whole. The supplementary information presented in Schedules D-1 to
D-7 and Schedule E are presented for purposes of supplementary analysis and are not a
required part of the basic financial schedules. The supplementary information has not been
subjected to the auditing procedures applied in the audit of the basic financial schedules and,
accordingly, we express no opinion on them.




June 21, 2002




                                                                                            35
                                                                             Schedule D-1

                National Science Foundation Award Number DBI-9728996
                                        Awarded To
                             The Academy of Natural Sciences
                     Schedule of Over/(Under) Recovered Indirect Costs
                For the period to January 1, 2000 to December 31, 2000 (A)
                                           Interim
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                      36
                                                                             Schedule D-2


                National Science Foundation Award Number OCE-9730416
                                        Awarded To
                             The Academy of Natural Sciences
                Schedule of Over/(Under) Recovered Indirect Costs (Cont.)
                For the period to January 1, 2000 to December 31, 2000 (A)
                                           Interim
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                      37
                                                                            Schedule D-3


               National Science Foundation Award Number ATM-9809606
                                       Awarded To
                            The Academy of Natural Sciences
               Schedule of Over/(Under) Recovered Indirect Costs (Cont.)
               For the period to January 1, 2000 to December 31, 2000 (A)
                                          Interim
                                       (Unaudited)




See accompanying independent auditors' report.
                                                                                     38
                                                                             Schedule D-4

                National Science Foundation Award Number DEB-9870226
                                        Awarded To
                             The Academy of Natural Sciences
                Schedule of Over/(Under) Recovered Indirect Costs (Cont.)
                For the period to January 1, 2000 to December 31, 2000 (A)
                                            Final
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                      39
                                                                             Schedule D-5

                National Science Foundation Award Number DEB-9870233
                                        Awarded To
                             The Academy of Natural Sciences
                Schedule of Over/(Under) Recovered Indirect Costs (Cont.)
                For the period to January 1, 2000 to December 31, 2000 (A)
                                           Interim
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                      40
                                                                             Schedule D-6

                National Science Foundation Award Number OCE-9901139
                                        Awarded To
                             The Academy of Natural Sciences
                Schedule of Over/(Under) Recovered Indirect Costs (Cont.)
                For the period to January 1, 2000 to December 31, 2000 (A)
                                           Interim
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                      41
                                                                            Schedule D-7

                National Science Foundation Award Number DBI-0084239
                                       Awarded To
                            The Academy of Natural Sciences
                Schedule of Over/(Under) Recovered Indirect Costs (Cont.)
                For the period to June 15, 2000 to December 31, 2000 (A)
                                          Interim
                                        (Unaudited)




(C) Indirect costs were claimed based upon the application of a maximum provisional rate
     of 64%, subject to downward adjustment only.



See accompanying independent auditors' report.
                                                                                     42
                                                                                 Schedule E

                       THE ACADEMY OF NATURAL SCIENCES
                     Listing of NSF Awards Active During Audit Period
                             Not Affected by Indirect Cost Audit
                            For the year ended December 31, 2000
                                          (Unaudited)


There were six NSF awards that were active during the year ended December 31, 2000, that
did not include:

   •
   •
       Indirect costs incurred or billed to NSF on an FCTR; or,
       Indirect costs based upon the application of a rate.

The listing below presents those awards along with an explanation for their exclusion from
this audit.

   NSF Award Number                   Award Period                 Explanation

       DEB-9707776                  08/15/97-01/31/00                  (A)
       DEB-9708330                  09/01/97-02/29/00                  (A)
       DEB-9726986                  06/01/98-07/31/00                  (A)
       DBI-9731886                  06/15/98-05/31/01                  (B)
       DEB-9815919                  08/15/98-07/31/00                  (A)
       DBI-9871363                  11/01/98-10/31/01                  (C)

(A) No direct or indirect costs claimed to NSF during the year ended December 31, 2000.

(B) A flat amount of indirect costs in lieu of an amount based upon a rate.

(C) No indirect costs budgeted/approved or claimed under this award.




See accompanying independent auditors' report.
                                                                                          43
    SECTION V


AWARDEE'S RESPONSE




                     44
   THE ACADEMY OF NATURAL SCIENCES

DETAILED (PERSONAL IDENTIFYING INFORMATION) ON
                 SCHEDULE C
